                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-04A                                   Office of Inspections                                  February 2014




                         Inspection of
                 Embassy Panama City, Panama




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                                i
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                                 ii
                        SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                              1
Context                                                    2
Executive Direction                                        3
  Communication and Coordination                           4
  Mission Priorities                                       4
  First- and Second-Tour Professionals                     4
  Locally Employed Staff                                   5
Policy and Program Implementation                          6
  Political, Economic, and Commercial Issues               6
  Leahy Vetting                                            7
  Grants Management                                        7
  International Narcotics and Law Enforcement Affairs      9
  Public Affairs Section                                   9
  Consular Section                                        11
Resource Management                                       16
  Management Operations                                   17
  Financial Management                                    18
  Human Resources                                         20
  Equal Employment Opportunity                            20
  General Services                                        21
  Facilities Maintenance                                  22
  Information Management and Information Security         22
  Innovative Practice: Use of Windows 7 Deployment Tool   24
Quality of Life                                           25
  Community Liaison Office                                25
  Health Unit                                             25
  American Employee Recreation Association                25
Management Controls                                       26
List of Recommendations                                   27
List of Informal Recommendations                          29
Principal Officials                                       30
Abbreviations                                             31




                                           iii
                          SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   The Ambassador and deputy chief of mission form a strong partnership and enjoy the
       confidence of the country team. Mission goals are well defined, activities are coherent
       and targeted, and collaboration among the 26 U.S. Government agencies at the embassy
       is excellent.

   •   The 2012 closure of the U.S. Agency for International Development mission after 51
       years marked a milestone in Panama’s economic development, but managing legacy
       assistance activities has taxed embassy resources. U.S. foreign assistance now focuses on
       law enforcement and justice sector programs to reduce narcotics trafficking and build
       capacity in police institutions.

   •   The public affairs section is rebuilding morale and sharpening its focus on mission
       priorities. The information office needs to play a bigger role in this endeavor.

   •   The embassy has proposed establishing a consular agency in western Panama to serve
       American citizens in that region. Before the Department of State can act on this request,
       the embassy needs to provide additional information on consular workload. In the
       meantime, efficiencies such as renewal of passports by mail and more frequent consular
       visits could improve services to resident Americans.

   •   U.S. direct-hire staffing has increased by more than 50 percent to 175 employees since
       the last inspection in 2006. Some 87 percent of the growth has been from non-
       Department of State personnel. Although the embassy has accommodated the increase,
       strains are beginning to show in housing maintenance, motor pool, residential security
       and other support services.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between September 9 and 30, 2013, and in
Panama City, Panama, between November 6 and 25, 2013. Ambassador Carol van Voorst (team
leader), Arne B. Baker (deputy team leader), David P. Bocskor, Ronda M. Capeles, Leo J.
Hession, Dolores J. Hylander, Daniel C. McCollum, Leslie A. Gerson, Robyn E. Hinson-Jones,
Barry J. Langevin, Ken Moskowitz, Charles A. Rowcliffe, and Timothy A. Wildy conducted the
inspection.




                                       1
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
        Panama’s fortunes have been entwined with trade and the Panama Canal since the
country won independence from Colombia in 1903. Supported by prudent management of the
canal and the world’s second largest free port, in 2012 Panama’s economy grew by 10.6 percent,
the highest rate in the Western Hemisphere. Sixty percent of the 14,000 ships that transited the
canal started or ended their journeys in a U.S. port. With the planned completion in 2015 of a
$5.25 billion expansion project, vessels with triple the cargo capacity of current ships will be
able to transit the canal, lowering transportation costs and creating new business opportunities
for U.S. ports.

         Panama has capitalized on its strategic location to become an international hub for
transportation, communications, and financial services. Its airport is among the busiest in Latin
America, serving 7 million passengers a year. These same advantages make Panama attractive to
narcotics traffickers, and local authorities have seized more than 100 metric tons of cocaine over
the last 2 years. Lax money laundering laws have made Panama a destination for illicit funds.
Despite impressive economic advances, income inequality is among the worst in the Western
Hemisphere. Efforts to bridge the gap between rich and poor are hampered by weak rule of law,
a shortage of skilled workers, poor public education, and corruption.

         Panama and the United States enjoy a close relationship marked by cooperation on
economics, trade, and law enforcement. U.S. priorities in Panama include enhancing democratic
institutions and stability, building law enforcement capacity, expanding economic opportunity,
and protecting American citizens and businesses. More than 45,000 Americans live in Panama, a
number expected to grow as retirees seek out the country’s low-cost living and developed
infrastructure. A bilateral free trade agreement ratified in 2012 marked an important step in the
relationship. Since the departure of President Manuel Noriega in 1989, Panama has conducted
five free and fair elections. The next is scheduled for 2014, and the campaign was in full swing
during the inspection. Panama’s interdiction in summer 2013 of a North Korean vessel
transporting Cuban weapons in apparent violation of United Nations Security Council sanctions
demonstrated a commitment to fulfill the country’s international obligations.

         Embassy Panama City has 175 U.S. direct-hire employees and 225 locally employed
staff, including representatives from the Departments of State, Defense, Justice, Treasury,
Homeland Security, and Health and Human Services, as well as smaller agencies. Total U.S.
Government operating and foreign assistance budgets were approximately $35 million in FY
2013.




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The embassy is led by an Ambassador and deputy chief of mission (DCM) whose close
partnership and strong policy direction result in coherent, integrated action in pursuit of U.S.
strategic goals. The embassy, which includes 26 U.S. Government agencies, is focused on
working with Panama to consolidate democratic institutions, improve law enforcement
cooperation, and expand economic opportunity and transparency. It is also attentive to the
requirements of the growing community of resident Americans.

        The Ambassador is a second-time chief of mission with excellent language skills and
broad regional expertise. His prior experience at senior levels in bureaus of the Department of
State (Department) dealing with narcotics and law enforcement, as well as with democracy and
human rights, is an asset in a mission where these issues are top U.S. priorities. An economics
officer, he is well positioned to oversee embassy efforts to implement the 2012 free trade
agreement with Panama.

        Mission officers share the assessment of senior Bureau of Western Hemisphere officials
that the Ambassador’s management of bilateral relations is “principled, judicious, and
calibrated.” Aware of Panamanian sensitivity to any perception of U.S. interference or
grandstanding, the Ambassador tends to favor quiet diplomacy, often conducted behind the
scenes. Embassy officers rely on his access to a wide circle of contacts in and outside
government to overcome roadblocks and to lock in the personal and official commitments that
make progress on U.S. goals possible.

         The Ambassador’s measured engagement in such areas as law enforcement and security
cooperation, humanitarian assistance, and responsible government has encouraged Panama to
take steps to become a more stable, inclusive society and a more active regional partner for the
United States. As the 2014 national elections approach, the Ambassador has directed an outreach
program to position the United States as an honest broker and champion of democratic
institutions. He put this message prominently on the front pages of local newspapers by
arranging for Vice President Biden to meet with all three presidential candidates during his
November 2013 visit to Panama. The Ambassador has raised contentious issues such as
corruption, drug trafficking, and Panama’s inadequate civil institutions with authorities and the
public, and has challenged practices and legislation that undercut fair competition and the
development of a healthy marketplace.

       The Ambassador’s engagement with disadvantaged and marginalized groups has
highlighted unsustainable socioeconomic conditions and generated positive actions by the host
government. He travels frequently to remote districts visited by few Americans except for the
225 Peace Corps volunteers he actively supports. Responsive to the needs and concerns of the
more than 45,000 American citizens living in Panama, the Ambassador stays in touch with them
through travel, town hall meetings, and social media.

        The Ambassador’s partnership with the DCM is a fusion of complementary professional
skills and personality traits. The DCM is a consensus-builder, noted by employees for the quality
of his tactical and managerial advice and his ability to marshal embassy resources swiftly in
pursuit of goals large and small. Both executives are respected for sound judgment and a

                                        3
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

comprehensive grasp of embassy activities. They listen well, consult widely, and welcome
debate. Both are highly visible presences. The DCM is constantly on the move around the
facility, and the Ambassador’s habit of lunching at the chancery cafeteria provides informal face
time that local and American staff value.

Communication and Coordination

        Information and guidance circulate rapidly within the embassy. Good organization and
staffing speed paperwork and other business through the front office. The Ambassador and DCM
chair regular meetings that promote communication and help focus staff on common goals. In
addition to the weekly country team meeting, a series of interagency working groups, several
keyed to individual mission goals, promote collaboration and debate, and help stakeholders
assess progress and plan next steps. Frequent meetings with section chiefs and agency heads
further strengthen front office oversight and stimulate dialogue. Several sections send the
Ambassador detailed weekly updates; his margin notes on these reports provide another source
of guidance and feedback.

        The Ambassador expects teamwork from the entities at the mission, and gets it.
Employees agree that interagency collaboration and coordination is outstanding. According to a
number of seasoned officers, it is the best they have experienced. Under front office direction,
teamwork between the mission’s interagency law enforcement and security offices has paid off
especially well, as demonstrated by Panama’s record-breaking drug seizures and fugitive
extraditions.

Mission Priorities

        The Integrated Country Strategy (ICS) statement is the product of missionwide
discussion and debate. In 2012, an offsite conference of all sections and most agencies developed
a clear statement of priorities and goals. A subsequent session in 2013 scrutinized and refined
these goals, modified outdated assumptions, and evaluated progress and tactics. The DCM’s
appointment of moderators from sections not directly involved in achieving the specific goals
under discussion stimulated lively debate. Incoming employees noted that the scheduling of the
conferences in late summer made the discussions of particular value for orientation and
integration. Employees regularly consult the ICS as a blueprint and a source of material for
public remarks. Several experienced employees told OIG inspectors the ICS, which is up to date
and under constant review, was the first such mission statement they had seen that actually
constituted a living document applicable to their daily work.

First- and Second-Tour Professionals

       The DCM takes a keen interest in the professional development of the embassy’s 10 first-
and second-tour (FAST) generalists and four specialists, and they in turn value his mentoring.
The DCM attends the group’s meetings, which occur about every 3 weeks, and has led
discussions on topics of professional interest. Although the DCM encouraged the group to set its
own meeting agendas, some FAST employees would prefer him to play a more direct role in
planning a well-rounded seminar/speaker program, and he has agreed. FAST personnel have
opportunities to serve as note takers, reporting officers, speechwriters, and control officers. One
served as master of ceremonies at the embassy’s 4th of July celebration. Every available FAST
                                        4
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

employee played a role in Vice President Biden’s fall 2013 visit to Panama. The DCM has asked
section heads to consider cross-training FAST personnel by providing them temporary out-of-
cone details. This effort is underway.

Locally Employed Staff

       Locally employed (LE) staff have received only one wage increase in the last 10 years;
purchasing power has decreased 13 percent over the last 2 years. The ongoing wage freeze,
budget sequestration, suspension of cash awards, hiring limits, and the 2013 U.S. Government
shutdown have had a negative impact on morale. The country’s economic boom is increasing
competition for Panama’s relatively small pool of skilled employees. Attrition at the embassy
was 13 percent in 2012. Although attrition is not yet a serious problem, staff members are aware
they have ever more attractive employment options outside the embassy. Local employees
expressed appreciation for the Ambassador’s initiative in hosting town hall meetings to explain
developments in Washington and to exercise rumor control. They also gave good marks to
management’s efforts to mitigate the impact of budget constraints with nonmonetary workplace
improvements. The LE staff committee meets quarterly with the DCM or the Ambassador and
enjoys access to both.




                                        5
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political, Economic, and Commercial Issues

         The political section does an excellent job reporting on political developments and has
good access to leaders in government and politics, including parties jockeying for position in the
lead-up to the 2014 general elections. It maintains a planning calendar and a reporting plan that
reflect ICS goals, and provides a steady stream of well-sourced cables to Washington. Recent
highlights focused on opposition and ruling party maneuvering before the elections, how the
Panamanian Government handled the seizure of a high-profile illicit shipment transiting the
canal, and insights into Panama’s counterterrorism successes. Washington bureaus and agencies
surveyed by the OIG team praised the section’s reporting. The Bureau of Intelligence and
Research cited recent scene setters as particularly valuable.

        The section’s close coordination with the front office and other embassy elements
promotes the flow of information and analysis missionwide. The political counselor’s advice is
valued throughout the embassy. Other agencies, for example, regard her “Who’s Who in
Panama” as a valuable tool. The document is a one-stop primer on personalities in government,
opposition parties, the Panama Canal administration, security services, and other sectors of
society.

        The political section maintains paper copies of 5,000 unclassified biographic files. The
political and economic sections share additional biographic files electronically, but other sections
cannot access them. The inspection team counseled the section to make electronic biographic
reporting accessible to all sections.

        The economic section contributes to the mission objective to increase Panama’s
prosperity by working to improve the rule of law, promote free trade and investment, and
encourage sustainable development. The section chief actively engages with university students
and the American Chamber of Commerce. The deputy counselor mentors the section’s FAST
officers. Long-time local employees contribute to reporting and outreach through their expertise
on the economy and legal system, and their personal and professional relationships with
Panama’s leaders.

       A key element of the section’s work is to help Panamanians expand economic
opportunity and transparency, including through full implementation of the 2012 free trade
agreement, which significantly liberalizes trade in goods and services. The section consults with
the U.S. Trade Representative and the Panamanian commercial ministry to assess progress and
develop next steps. The free trade agreement and the ongoing expansion of the Panama Canal
have raised Panama’s visibility in trade, tourism, and investment, all of which are covered by
economic reporting. Other reports have analyzed unemployment, corruption, biodiversity, and
Panama’s relations with its neighbors. The section chairs an interagency anti-money laundering
working group on heightening Panama’s attention to this issue. The October 2013 signing of an
agreement to share a $36 million asset forfeiture was an important success in cooperation in this
area.



                                        6
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The embassy’s commercial office helps U.S. businesses maintain a highly favorable trade
balance with Panama, promotes adherence to terms of the free trade agreement, and advises the
Panamanian Government on improving its economy. U.S. exports to Panama were almost $9.2
billion in 2013, up 17 percent from 2012. The office helps U.S. companies resolve free trade
agreement issues that affect their business. Cooperation between the economic section and the
U.S. Commercial Service is excellent, particularly on issues involving Panamanian Government
procurement from U.S. vendors. The two section heads sometimes visit companies together, join
forces on trade and promotional events, and share conference calls with U.S. businesses involved
in advocacy cases.

        Panama is an important consumer of U.S. agricultural products, and the embassy is
committed to increasing opportunities for U.S. exporters. To that end, the Foreign Agricultural
Service maintains an office with two LE staff members. In the absence of an American officer,
the LE senior advisor works directly with the front office and the economic section. He
participates in the economic issues working group.

Leahy Vetting

        The political and economic section’s office management specialist coordinates Leahy
vetting. The Leahy amendment prohibits the use of foreign assistance funds to assist foreign
security forces where there is credible evidence such forces have committed gross human rights
violations. In 2013, nine embassy agencies and sections submitted more than 1,500 cases for
vetting. Less than 1 percent of candidates were deemed ineligible for training. The embassy
forwarded cases to Washington well within the 10-day window required by the Bureau of
Democracy, Human Rights, and Labor.

Grants Management

        In the last 5 years, embassy and Department grants officers awarded 177 grants totaling
$7.6 million to Panamanian recipients. This amount includes $1.31 million in grants awarded in
FY 2013, funded mostly by Economic Support Funds and International Narcotics and Law
Enforcement appropriations. Small grants have advanced embassy objectives by such projects as
supporting a network of youth centers, improving strategic budget planning by Panama’s police,
and supporting economic development programs in the Darien region near the Colombian
frontier.

        Grants management strains the resources of the political and economic sections. Political
and economic officers divide grants responsibilities. All have completed required training. A
$500,000 Central American Regional Security Initiative-funded grant to benefit 9,000 at-risk
Panamanian youths in 22 centers around the country is particularly time-consuming because each
center requires attention; several have shown poor local leadership or financial irresponsibility.
There are clear benefits for embassy officers to manage grants, including professional
development and in-country travel. The added work, however, cuts into the time officers have to
complete other priority tasks.

        The number and dollar value of grants is relatively high for a mission of Panama City’s
size. Sixteen grants officers and grants officer representatives monitor small grants from offices
in the political, economic, public affairs, and international narcotics and law enforcement
                                        7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

sections. The embassy has requested creation of an LE staff position to support grants
administration. With the departure of the U.S. Agency for International Development (USAID)
in 2012, the embassy took the initiative to invite a grants assistance visit from the Office of the
Procurement Executive to train officers on grants management and help organize files. The
review found that some grants files did not consistently include risk management and monitoring
plans, as required by Grants Policy Directive 43; were not organized and documented consistent
with Grants Policy Directive 3; and were not properly closed out after conclusion of the grant
activity, as required by Grants Policy Directive 23. Several embassy grantees meet the definition
of high-risk grantees and require monitoring to protect against loss of government funds.
Because grants management responsibilities are dispersed among sections, it is difficult to ensure
consistent documentation of grants files and grants monitoring.

Recommendation 1: Embassy Panama City, in coordination with the Bureau of Western
Hemisphere Affairs, should implement a plan to improve administrative support for grants
management. (Action: Embassy Panama City, in coordination with WHA)

       The embassy has not developed missionwide standard operating procedures describing
the scope of the small grants program and requirements for grants awards, monitoring, and
closeout. As responsibilities for grants management are dispersed among four embassy sections,
a standard operating procedure would promote consistency and assist new officers in grants
management duties.

       Informal Recommendation 1: Embassy Panama City should implement missionwide
       standard operating procedures for small grants programs to document processes
       applicable to grants award, monitoring, and closeout.

        With the closure of the USAID mission, political and economic officers overseeing small
grants have assumed responsibility for monitoring and reporting on a number of legacy USAID
foreign assistance projects. Examples include three environmental trust funds totaling $47
million in U.S. Government assistance, and $4.4 million in the President’s Emergency Program
for AIDS Relief, managed from the USAID office in Guatemala City. Some grants are Panama-
specific; others are regional. USAID officers visit from El Salvador and Guatemala to monitor
and evaluate some remaining projects, but other management responsibilities fall to the political
and economic sections.

       The economic counselor represents the U.S. Government on three USAID legacy project
boards: the Ecological Trust Fund, Chagres National Park Fund, and the Darien National Park
Fund. The three foundations require legal expertise that the economic section does not have.
Decisionmaking would be more effective and efficient if qualified USAID personnel represented
USAID on the boards.

Recommendation 2: Embassy Panama City should request support visits from the U.S. Agency
for International Development’s regional office to cover the semiannual meetings of the
Ecological Trust Fund, the Chagres National Park Fund, and the Darien National Park Fund.
(Action: Embassy Panama City)




                                        8
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

International Narcotics and Law Enforcement Affairs

        The international narcotics and law enforcement section performs well operationally.
Over the past decade, it has grown from a small program with a budget of about $1 million to a
section of 13 employees with a $9.9 million budget. The 2008 launch of the Central American
Regional Security Initiative, intended to address deteriorating security conditions by
strengthening police and justice sector institutions, infused the section with additional funds.
Program activities now run the gamut from traditional enforcement activities, such as maritime
interdiction and vetted wiretap units, to new areas, such as gang resistance training, justice sector
reform, and anticrime youth programs—about 20 programs in all. This workload requires
substantially expanded outreach to Panamanian ministries and creates a significantly enlarged
span of control for the section’s leadership. With respect to measuring the results of programs,
the Bureau of International Narcotics and Law Enforcement Affairs tracks one set of goals, and
the mission tracks another. Many goals are based on output, such as measuring kilograms of
cocaine seized, rather than focused on outcomes.

         The section interacts effectively with mission law enforcement agencies and the
Panamanian Government. With the end of guerrilla incursions from Colombia into Panama’s
Darien region, assistance has pivoted from Darien-based programs to improving capacity at
Panama’s three main police organizations and its judicial sector. The OIG team reviewed
procurement, financial management, and end-use monitoring processes and did not identify
significant management controls weaknesses in these areas.

        The international narcotics and law enforcement section has substantial prior-year funds
that have not been subobligated for host country program assistance (“pipeline funds”). These
funds totaled $11.2 million as of September 2013, not including $6.1 million in FY 2013 funding
that will be available for use in FY 2014. Nearly half the section’s annual expenditures consist
of commodities and supplies procurements, around $4.41 million in FY 2013. The section
prepared a strategic acquisition plan in 2013 to identify procurement priorities, but staffing gaps
may hinder procurement operations this year because two of the section’s three procurement
positions are vacant. This situation may lead to a further increase in the section’s already
substantial pipeline funds. In the long term, the international narcotics and law enforcement
director anticipates reorienting program activities away from commodities-based assistance to
capacity-building in areas such as the justice sector.

Public Affairs Section

        A recently arrived public affairs officer, assisted by newly tenured information and
cultural affairs officers, is making steady progress improving morale and communication in the
section, where leadership and tension between new and more experienced LE staff had created a
poor work environment. The OIG team counseled American supervisors on team building and
recommended they consult regularly with experienced mentors.

       The new public affairs officer has earned the trust and support of the Ambassador and
DCM, and they meet frequently to discuss outreach and programs. The public affairs officer
organized a useful strategic planning offsite meeting that prompted the staff to decide on
programs to better support ICS goals. The result was an excellent public diplomacy plan for FY
2014 with target audiences, dates, and funding tied to concrete ICS goals, including supporting a
                                         9
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

more equitable and inclusive Panamanian society and advancing opportunities for marginalized
groups.

Information Office and Electronic Outreach

        The information office focuses on social media in addition to traditional press work. The
Ambassador promotes a low-key media approach that emphasizes people-to-people engagement
to avoid the perception of U.S. interference in Panamanian affairs, particularly during a pre-
election period. The Ambassador maintains an active public schedule and often answers media
questions during outreach activities, but he does relatively few on-the-record interviews. The
information office has adjusted to this style, which makes few demands on office resources.
Press coverage has been almost universally positive in a country where more than two-thirds of
the population is pro-American. The information office does not produce a daily media
summary, as a product prepared by the Open Source Center at the embassy meets this need.

         Given that the information office workload is relatively light, the staff should be free to
conduct other tasks, such as speaker programs and media training. Public affairs sections report
their program activities to Washington through the mandatory Mission Activity Tracker system,
used to inform program decisions. Judging by the Mission Activity Tracker reports submitted,
the information office appears to be underperforming. The office made no reports from
September 1 through November 20, 2013, which can be partly accounted for by the U.S.
Government shutdown and a vice presidential visit. But it made only seven reports from April 1
to July 1, 2013. This level of productivity is well below normal for an office of its size. By
comparison, the rest of the public affairs section conducted 42 activities during the same period.
Either the information office is doing little work or it is failing to report accurately. As a result, it
is difficult to evaluate the office’s output.

Recommendation 3: Embassy Panama City should submit Mission Activity Tracker reports for
all its information and media activities. (Action: Embassy Panama City)

        The OIG team reviewed the embassy Web site and found that the latest embassy-sourced
features on it were 2 months old. Despite the lack of regular updates, there were more than
168,000 hits in October 2013 in Spanish and English. By not keeping the Web site current, the
embassy is missing an opportunity to convey its messages to the public.

        Informal Recommendation 2: Embassy Panama City should update its English- and
        Spanish-language Web sites in a timely fashion.

       The embassy is making good use of other social media resources. Its Facebook page has
some 70,000 fans; its Twitter and Instagram audiences are smaller. The section employs a full-
time social media coordinator who posts daily to Facebook and to Twitter three times a day. The
coordinator also produces a social media calendar that ties messaging to Department priorities.

Cultural Affairs Office

       The office handles an appropriate number and mix of professional and academic
exchanges, speakers provided by the Bureau of International Information Programs, and cultural
programs. LE staff members know their portfolios well, and Washington counterparts are
                                         10
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

satisfied with operations. A recently hired LE staff member has a portfolio that involves
primarily managing one experienced subordinate, who requires little supervision in handling her
Fulbright program responsibilities. The OIG team counseled the cultural affairs officer to
monitor the new staffer’s workload and redistribute assignments appropriately.

        In 2011, the office entered into a public-private partnership with Latina University to
open a Center for English Language Immersion. The office received more than $130,000 in
American Spaces support funds in FY 2012 for the facility, which houses an American Corner,
12 classrooms, an office for the embassy’s English Language Fellow, and a large multipurpose
room. The center is centrally located and accessible by public transportation. It has potential to
become a major programming venue. The embassy’s partner has ambitious plans to expand the
center and establish satellite locations.

Staffing

        Panama’s public affairs section is the most heavily staffed in Central America, with 18
positions—five more than the regional average. One position, the vacant information resource
center specialist, is unnecessary and can be abolished. The previous public affairs officer agreed
to eliminate this position after the Information Resource Center closed in January 2013. The
center was closed but the position remains on the staffing pattern.

Recommendation 4: Embassy Panama City, in coordination with the Bureau of Human
Resources, should eliminate the information resource center specialist, position 313201100411.
(Action: Embassy Panama City, in coordination with DGHR)

       The public affairs section grants program is well managed. The local employee who
oversees grants management completed grants training but has not requested grants officer
representative certification, as required by Grants Policy Directive 16 for managing grants
valued at $100,000 and above.

       Informal Recommendation 3: Embassy Panama City should request grants officer
       representative certification for the public affairs section administrative assistant.

Consular Section

        Panama’s consular workload is an anomaly in Central America, with American citizens
services and federal benefits units each larger than the nonimmigrant visa unit. Few Panamanians
immigrate to the United States, and the immigrant visa workload has declined by nearly half
since the 2006 inspection. The nonimmigrant visa workload has remained steady over the same
period, and the overstay rate is low. Panama has an unusual number of dual Panamanian-U.S.
citizens because of regulations governing birth in the Panama Canal Zone prior to 1979. Many
former Canal Zone workers or residents receive U.S. pensions. U.S retirees are flocking to
Panama because it is inexpensive and close to the United States.

        In spring 2012, the Bureau of Consular Affairs (CA) sent a consular management
assistance team to Embassy Panama City. As a result of shortcomings identified during that visit,
the assistance team placed the section under the temporary mentorship of a regional consular
officer in Washington. Since that time, consular management has revived the section’s flagging
                                       11
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

morale, recruited able successors for three retiring local supervisors, refined processes, and
enhanced management controls. The staff is well trained and managed, wait times for service are
minimal, and the section provides good customer service. Retaining Panama in the regional
consular officer program is no longer cost effective or necessary.

Recommendation 5: The Bureau of Consular Affairs should remove Embassy Panama City
from the regional consular officer program. (Action: CA)

American Citizens Services and Federal Benefits Units

        The embassy has taken several initiatives to improve services for U.S. citizens but has
limited resources to address needs outside the capital region. CA approved the conversion of an
entry-level consular position to a mid-level American citizens service chief to provide more
continuity and oversight for the complex caseload. The embassy worked with the Government of
Panama to improve healthcare access for Americans prisoners. Consular management
reinvigorated a prisoner transfer program, sending eight Americans, 16 percent of the U.S.
citizen prisoner population, back to the United States in FY 2013. Five more cases were in
process in the first quarter of FY 2014. The embassy formed a partnership with U.S. businesses
to improve conditions for the remaining prisoners through volunteer donations.

        The introduction of the U.S. Customs and Border Protection’s Advanced Passenger
Information System at the international airport has increased the number of fugitives from U.S.
justice detected transiting or entering the country. The American citizens services unit processed
23 extradition requests in FY 2013, up from none in FY 2012. Extradition requests are labor
intensive and time sensitive, as fugitives can be detained under Panamanian law for only 24
hours without an official extradition request. The unit coordinates among several Washington
and Panamanian entities, prepares translations, assembles documentation, and drafts diplomatic
notes on short notice, juggling concurrent emergency service requests.

        Personnel in both the American citizens services and federal benefits units are cross-
trained to assist in such workload surges, but the federal benefits unit is busy in its own right.
The embassy’s Civil Service retirement caseload is second only to that of Embassy Manila. To
maximize efficiency, the unit has encouraged direct deposit of retirement and insurance benefits,
thereby reducing the number of checks received by mail from more than 20,000 in 2004 to 700
in 2013. This effort has saved 1 week per month in staff time that is now spent on customer
assistance rather than check sorting and distribution.

Proposed Consular Agency

        An increasing number of U.S. citizens who use the two units live 3 or more hours from
the capital. The embassy requested authorization to establish a consular agency in Chiriquí
province to provide increased services to those citizens. CA applies metrics to evaluate requests
for new consular agencies. Emergency services weigh higher than routine services in deciding
whether a consular agency is warranted. A consular officer and a local employee visit prisoners
in the area quarterly. On one of those visits, the team also conducts consular outreach, providing
20 to 90 services to U.S. citizens per year over the last 4 years. Each trip costs about $1,600 for
two persons, including lodging and airfare. The cost to establish a consular agency is

                                       12
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

approximately $400,000. Start-up costs for the first year are another $100,000, with recurring
costs of $50,000 per year thereafter.

        There may be better, more cost effective ways to provide service in the region than
establishing a consular agency. The consular section does not maintain statistics by province for
routine services. As a result, it cannot provide a clear picture of the cost effectiveness of a
consular agency.

       Informal Recommendation 4: Embassy Panama City should keep separate statistics for
       6 months on routine consular services requested from the area that would be served by
       the proposed consular agency.

        The consular section does not provide an annual schedule of outreach visits in advance so
potential customers can decide whether they need to make a costly trip to the embassy. Even if a
consular agency were established, 3 Foreign Affairs Manual (FAM) 8917.1 requires an annual
visit by the supervisory consular officer and recommends regular oversight visits by other
appropriate personnel. Putting greater emphasis now on quarterly outreach would provide better
service in the near term and accustom the section to making time for supervisory travel if an
agency is eventually approved.

       Informal Recommendation 5: Embassy Panama City should publish an annual schedule
       of consular outreach visits to the Chiriquí region in advance.

       Informal Recommendation 6: Embassy Panama City should conduct quarterly outreach
       visits to the Chiriquí region.

        The federal benefits unit works with retirees in Chiriquí by email, but the consular
section has not devised ways to provide other routine services in the provinces remotely.
Consular management had not yet considered passport renewal by mail, for example, even
though 7 FAM 1362 details how to request authorization for this service. Such an initiative
would reduce demand for appointments at the embassy and provide improved service to citizens
living in remote areas.

Recommendation 6: Embassy Panama City should request authorization from the Bureau of
Consular Affairs to initiate a program for passport renewal by mail. (Action: Embassy Panama
City)

Efficiency

       The section has both the space and personnel resources to accommodate workload
growth. Officer and local staff workstations are commingled, enhancing communication,
camaraderie, and oversight. There are sufficient interview windows; waiting room space is
adequate; and most services are by appointment.

        Several potential efficiencies remain unaddressed. The 2012 consular management
assistance team recommended that the embassy consider an interview waiver program for
nonimmigrant visa renewal cases, as authorized in 9 FAM 41.102. Consular management is
aware of the waiver authority, but it manages its visa workload well and streamlines the process
                                       13
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

in other ways. However, with pressures on the waiting room for other services, limited customer
parking near the embassy, and growing demand for officer resources in American citizens
services, efforts to serve customers more quickly and reduce nonessential interviews are needed.

Recommendation 7: Embassy Panama City should implement a nonimmigrant interview
waiver program for qualified citizens of Panama and appropriate permanent residents. (Action:
Embassy Panama City)

        The consular section requires interviews for all applicants, including minor children and
elderly persons. According to 9 FAM 41.102 N2, applicants younger than 14 or older than 79
can be exempted from personal appearance. The section requires personal appearances for
children to deter applicants from neighboring countries with a history of child smuggling from
attempting to use Panama for that purpose. Panamanian citizens, however, do not historically use
the visa process to smuggle children to the United States. The section’s personal appearance
requirement has increased the number of small children in the waiting room unnecessarily and
has led to a process to expedite interviews for them and for elderly applicants that delays service
to other clients.

       Informal Recommendation 7: Embassy Panama City should reintroduce the personal
       appearance waiver for young children, elderly Panamanian citizens, and permanent
       residents from countries with no history of child smuggling.

        Both the American citizens services and the immigrant visa unit refer applicants for DNA
testing to confirm relationships, usually when birth registration is delayed. The immigrant visa
unit referred 25 cases in FY 2013. All applicants referred for testing completed the test
procedures. At the time of the inspection, three cases were still pending results, but only one
completed case confirmed lack of relationship, and further investigation in that case revealed that
the applicants actually believed they were related and were not attempting to commit fraud.
Previous years showed similar results. DNA testing is expensive for applicants and time-
consuming for U.S. staff members who oversee DNA collection and chain of custody. The
section has not reviewed its processes to determine whether secondary evidence of relationship
would suffice in many cases and reduce the numbers of DNA referrals.

       Informal Recommendation 8: Embassy Panama City should determine what secondary
       documentation might reduce the number of referrals for DNA testing without
       compromising the integrity of the visa or citizenship process.

Future Staffing Issues

        The fraud prevention manager is a part-time FAST officer. In light of Panama’s low
fraud incidence and the resourcefulness of the local fraud investigator, this arrangement has been
adequate. When the embassy’s first assistant regional security officer for investigations arrives in
2014, that officer will interact regularly with the fraud prevention manager to develop the scope
of the new operation. The mid-level visa chief has a broader vision of consular operations and
would be a more appropriate interlocutor for the new assistant regional security officer for
investigations.


                                       14
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 8: Embassy Panama City should assign the fraud prevention manager
portfolio to the visa chief on the arrival of the assistant regional security officer for
investigations. (Action: Embassy Panama City)




                                       15
                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


Resource Management
            Agency                   U.S.      U.S.
                                    Direct-   Local-   Foreign             Total
                                     Hire      Hire    National   Total   Funding
                                     Staff    Staff     Staff     Staff   FY 2013
Department of State
Diplomatic and Consular Programs         36        9         10      55    2,392,076
Consular Affairs                          6        8         15      29    1,179,554
ICASS-Traditional                         8       21        110     139    8,678,200
ICASS-Bureau of Overseas
Buildings Operations                      0        0          0       0     252,000
ICASS-Bureau of Diplomatic
Security                                  0        0          1       1    1,597,700
Public Diplomacy                          3        3         12      18    1,448,751
Representation                            0        0          0       0       76,981
Marine Security                           6        0          4      10      147,670
Bureau of Diplomatic Security             2        0          1       3      338,222
Bureau of International Narcotics
and Law Enforcement Affairs               4        5          4      13    6,928,113
Bureau of International Security
and Nonproliferation                      1        0          1       2
Bureau of Overseas Buildings
Operations                                0        0          0       0    2,535,926
Department of Agriculture
Agricultural Research Service             2        0          6       8     275,755
Animal and Plant Health
Inspection Service                       10        1         10      21
Foreign Agricultural Service              0        0          2       2     109,529
American Battle Monument
Commission                                1        0          6       7     740,100
Department of Commerce
U.S. Commercial Service                   1        0          4       5     506,661
Department of Defense
Department of the Army                    2        0          0       2
Defense Attaché Office                   10        1          0      11     584,263
Joint Planning and Assistance
Team                                     12        0          0      12     101,500
Military Information Support
Team                                      0        0          0       0      12,517
Naval Criminal Investigative
Service                                   3        1          0       4     344,600
Office of Defense Cooperation             9        0          6      15      73,111

                                    16
                        SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

U.S. Southern Command,
Operations and Maintenance,
Army                                            0         0            0         0           67,000
U.S. Southern Command, Tactical
Analysis Team                                   3         0            0         3          18,000
Federal Aviation Administration                 2         1            0         3         456,500
Department of Health and
Human Services
Centers for Disease Control and
Prevention                                      0         0            0         0           30,971
Department of Homeland
Security
U.S. Coast Guard                                1         0            0         1           52,615
U.S. Customs and Border
Protection, Container Security
Initiative                                      8         0            1         9       1,222,470
U.S. Customs and Border
Protection, International Affairs               2         1            0         3         200,122
U.S. Immigration and Customs
Enforcement                                     7         1            2        10         495,517
Transportation Security
Administration                                  1         1            0         2
Department of Justice
Drug Enforcement Administration                19         2            3        24         176,847
Federal Bureau of Investigation                 4         0            0         4         225,934
Office of Overseas Prosecutorial
Development, Assistance, and
Training                                        1         0            1         2
Open Source Center                              6         1           23        30
Peace Corps                                     3         0            3         6       3,750,698
Department of Treasury
Internal Revenue Service                       2          1           0          3         300,000
Totals                                       175         57         225        457      35,319,903

Management Operations

       Overall, the management section performs well. Since the embassy’s 2007 move to a 23-
acre compound in the suburbs of Panama City, the embassy has colocated most personnel in a
safe and secure facility that replaced most of the 12 offsite annexes. As part of a long-term effort
to address housing quality and traffic concerns, the embassy is negotiating with developers to
construct housing on a 40-acre parcel of land adjacent the chancery. Staffing growth and the
move have placed pressure on residential maintenance and motor pool services.

        For 2012 and 2013, International Cooperative Administrative Support Services (ICASS)
scores exceeded 4.0 (on a 1-5 scale) in 27 of 29 management categories. Three services—

                                        17
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

residential maintenance, leasing and vouchering—were slightly lower than 4.0. The majority of
scores were higher than worldwide averages.

       American officers provide strong leadership and oversight. LE staff members are
experienced and knowledgeable. Communication and morale are good. The management section
has 10 unfilled LE staff positions because of sequestration-related hiring limits.

Implications of Staffing Growth for the Management Platform

        Since the 2006 OIG inspection, U.S. direct-hire staffing has increased by 56 positions: 7
from the Department and 49 from other agencies, placing additional demands on embassy
resources. Panama’s location, its status as a transshipment center, and its modern infrastructure
make the country increasingly attractive to U.S. agencies, particularly those in law enforcement
and security. Some have established regional hubs at the mission. The front office requires
embassy stakeholders to review National Security Decision Directive 38 (NSDD-38) requests
closely and to consider the implications of additional positions on the management platform.
During FY 2013, 9 position requests were approved, but several were discouraged or modified.
Despite rapid growth, staffing is within parameters approved by the Office of Rightsizing, which
reviewed embassy staffing projections in 2010.

         Additional growth without an increase in LE staff is likely to outstrip the mission’s
ability to deliver quality services and lead to lower ICASS scores. The embassy has made good
use of administrative tools to capture growth costs, including collection of new position startup
expenses, issuance of partial-year ICASS invoices, and conversion by the Ambassador of some
long-term temporary duty positions to permanent positions.

        Some agencies use a series of temporary duty visits to staff their positions. There is no
formal mechanism in place to track those personnel. According to 6 Foreign Affairs Handbook
(FAH)-5 H-351.2, agencies that use serial temporary duty assignments are considered to have
established permanent positions and, in accordance with existing NSDD-38 guidance, the
Ambassador may require formal approval for such positions. In the past 3 years, the embassy
hosted a yearly average of 2,379 temporary duty visitors, a number of whom may have
encumbered positions on a long-term basis. Although the embassy issues invoices for long-term
temporary employees, these invoices typically do not include the full cost of providing ICASS
services that would be charged to a regular position. Some positions may not have been
regularized under the NSDD-38 process and are not paying full ICASS and position startup
costs.

Recommendation 9: Embassy Panama City should establish a mechanism to identify long-term
temporary personnel stationed at the mission and, where appropriate, seek formal approval for
them through the National Security Decision Directive 38 process. (Action: Embassy Panama
City)

Financial Management

       The financial management unit provides good customer service. The inspectors discussed
with the financial management officer ways to improve operations, including revising standard
operating procedures, outsourcing some of the unit’s vendor voucher workload, and work force
                                       18
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

planning. ICASS council meetings are professional and collaborative; a working-level budget
committee meets regularly.

Post Support Unit

        The embassy may be able to reduce the cost of voucher processing by moving some work
to the Post Support Unit that is part of the Bureau of the Comptroller and Global Financial
Services. Increased use of the support unit is one of the Department’s Top 8 Global Management
Priorities to increase efficiency and reduce ICASS costs. The expected departure of two embassy
voucher examiners in FY 2014 offers an opportunity to make this transition. The embassy’s cost
to process a voucher strip code is $30.01, which is higher than the Post Support Unit’s charge of
$12 per strip code. Department guidance makes outsourcing voucher processing optional and an
embassy management decision, but outsourcing is likely to be cost effective in Panama.

Recommendation 10: Embassy Panama City should prepare a cost-benefit analysis to
determine whether outsourcing voucher processing to the Post Support Unit would result in cost
savings and share the results with the International Cooperative Administrative Support Services
council. (Action: Embassy Panama City)

Voucher Processing Efficiency

       The voucher unit has a light annual workload of 10,548 strip codes. Each of the unit’s
five-and-a-half local voucher examiners processes about 1,900 strip codes annually, which is
below the worldwide average of 2,224 strip codes per examiner. The vouchering unit could
achieve greater efficiency by adopting processes and procedures used by more efficient
embassies in the region. For example, Embassy Santo Domingo’s voucher unit processes almost
twice as many strip codes as Embassy Panama City’s unit. More efficient processing could save
funds.

Recommendation 11: Embassy Panama City, in coordination with the Bureau of Western
Hemisphere Affairs, should compare its vouchering procedures to those of more efficient
vouchering units and revise its procedures accordingly. (Action: Embassy Panama City, in
coordination with WHA)

Outstanding Travel Advances

        The open advance report showed 28 outstanding travel advances totaling $27,235.
Twenty-three of these were more than 30 days overdue. Sixteen outstanding travel advances
have been in arrears since 2012 and are probably uncollectible. Most of these outstanding travel
advances are for invitational travelers who failed to complete necessary documentation.
Department guidance requires travelers to submit expenses within 5 business days. A travel
advance is treated as a loan subject to interest, penalties, administrative charges, and debt
collection 30 days after travel is completed.

Recommendation 12: Embassy Panama City should reconcile outstanding travel advances,
determine uncollectible amounts, and write off uncollectable amounts. (Action: Embassy
Panama City)

                                       19
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Telecommunications Equipment Usage Policies

        The embassy’s policies and procedures for use of cellphones and BlackBerry devices do
not comply with Department regulations. The embassy’s telephone usage policy does not
adequately restrict personal use of official cellphones, BlackBerry devices, and office landlines,
as required by 5 FAM 511 and 5 FAM 522. For example, the embassy allows personal use of
cellphones for amounts below $25 monthly. Absent a policy that complies with Department
guidance, the embassy may be paying for expenses that are properly the personal responsibility
of employees.

       Informal Recommendation 9: Embassy Panama City should issue a management notice
       outlining a policy that conforms to Department regulations on the use of government
       telecommunications equipment for personal calls.

Retention of Obligating Documents

       The financial management unit does not retain copies of all obligating documents and
copies of warrants for American contracting and grants officers. Per 4 FAM 223.1-4 and 4 FAH-
3 H-423.5, financial management units are to maintain copies of obligating documents.

       Informal Recommendation 10: Embassy Panama City should provide the financial
       management unit copies of all active contracts, grants, contracting officer warrants, and
       grant officer warrants.

Financial Policies

       Several financial management policies and procedures are outdated and require revision,
including policies and procedures for visitors and temporary duty personnel, gifts, and travel.

       Informal Recommendation 11: Embassy Panama City should update and reissue
       financial management policies.

Human Resources

        The human resources office is well run. Its coordinates an active FAST program and an
effective Equal Employment Opportunity (EEO) program. It has placed 24 eligible family
members into embassy jobs. The human resources officer has initiated a program to update all
LE staff position descriptions, and the updates are 85 percent complete.

Equal Employment Opportunity

       Embassy Panama City’s EEO program is effective. Embassy bulletin boards display EEO
information prominently. EEO counselors believe the effectiveness of the LE EEO liaisons could
be enhanced with additional training. Although formal training for LE staff members is not
generally available, the human resources office can provide on-the-job familiarization to assist
employees with EEO liaison responsibilities.


                                       20
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 12: Embassy Panama City should offer on-the-job training
       to its locally employed Equal Employment Opportunity liaisons.

General Services

         Overall, the general services unit provides good customer service. Two weak areas are
residential maintenance and repair, the latter a joint responsibility of the general services and
facilities maintenance units. The procurement unit provides good service and partners well with
other management units for its $12 million in annual purchases. A review of a sample of
procurement actions found that staff follows competition and documentation regulations. All
contracts contain Federal Acquisition Regulation clause 52.222-50, “Combating Trafficking in
Persons.”

        The motor pool operates well but is understaffed, with only eight drivers for a large
customer base; two positions currently are vacant. The embassy meets the need for some motor
pool services with temporary driver positions and contract companies.

        The property management unit manages an inventory with an acquisition value of $7.85
million. The unit conducts periodic spot checks of expendable and nonexpendable property and
follows management controls. The FY 2013 inventory reconciliation identified shortages of
$4,200 for nonexpendable property. The OIG inspector spot checked records and inventory and
identified no anomalies.

Housing and Residential Maintenance

         Residential maintenance received below average marks on OIG’s questionnaires. Low
customer satisfaction stems from the poor construction quality of local residences, unresponsive
landlords, an understaffed facilities maintenance unit, and problems related to the Department’s
introduction of a pilot work order system that makes oversight of ongoing maintenance activities
less efficient. The unit had a backlog of 424 work orders and may not be meeting the ICASS
standards for residential maintenance, which require resolution of work orders within 7 business
days. The embassy cannot readily overcome the limitations inherent in the Department’s work
order system or landlords’ unresponsiveness, but it can reverse a staffing decision that sapped the
maintenance office’s resources. Under the previous management counselor, the embassy
transferred five facilities tradesmen to the housing unit. This improved the housing make-ready
process, but at the cost of residential maintenance, which was already struggling to keep pace
with the workload.

Recommendation 13: Embassy Panama City should establish an appropriate level of staffing to
improve residential maintenance services. (Action: Embassy Panama City)

        The housing assignments process otherwise functions satisfactorily. The interagency
housing board meets regularly, documents its meetings, and follows proper procedures with
respect to housing assignments. Despite complaints from some customers about lack of
transparency in housing assignments, most employees expressed satisfaction with their housing.




                                       21
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Furniture and Appliance Pool

        The mission did not create a furniture and appliance pool by the October 2013 deadline
established in 6 FAH-5 H-512.1.c. The establishment of furniture and appliance pools is a
Department Top 8 Global Management Priority to lower costs, increase efficiency, and reduce
the need for warehouse space. The ICASS Service Center rejected the mission’s draft
interagency furniture and appliance pool policy because it did not comply with guidelines. In the
absence of a furniture and appliance pool, the embassy is likely to incur higher costs for
warehousing, acquisition, and property management.

Recommendation 14: Embassy Panama City should submit to the International Cooperative
Administrative Support Services’ Service Center an updated furniture and appliance pool policy
that complies with Department of State guidance. (Action: Embassy Panama City)

Real Property

        The U.S. Government owns 55 acres of undeveloped land adjacent the embassy
compound, acquired in 2003. Ten years later, the embassy and the Bureau of Overseas Buildings
Operations are engaged in discussions with local real estate developers to sell the property.
Under the current proposal, the Bureau of Overseas Buildings Operations will receive cash from
the sale. The bureau will also receive title to 50 houses for staff residences, which the developer
will build as part of the development.

Facilities Maintenance

       The facilities maintenance unit maintains the chancery and government-owned
residences. It follows good preventive maintenance practices for the chancery and is attentive to
occupational health and safety. The Office of Safety, Health, and Environmental Management
conducted a site visit in March 2013 and identified 44 deficiencies; all but six of its
recommendations have been closed.

        The facilities manager is the contracting officer’s representative for the janitorial contract
but has not completed required training and certification. In accordance with 14 FAH-2 H-143.1,
all contracting officer’s representatives and others who assist contracting officers in managing
contracts must be certified and maintain valid certifications. The certifications of two other staff
members also have expired. Without required training, contracting officer’s representatives will
lack the technical knowledge necessary to monitor and oversee contractors.

Recommendation 15: Embassy Panama City should require all contracting officer’s
representatives receive mandatory contracting officer’s representatives training. (Action:
Embassy Panama City)

Information Management and Information Security

       The information management program provides effective operational support. It is staffed
appropriately for its workload. Major initiatives in the last year included deployment of a new
wireless network on the compound and the migration to Windows 7 for about 240 users.

                                        22
                            SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED

        Communication among unit employees is problematic, however, and affects morale. The
        management counselor has taken steps to mediate interpersonal issues in the unit
                 [Redacted] (b) (5)



                                                                                          The OIG
        team counseled personnel on issues such as internal communication, mailroom access control,
        equipment labeling, employee morale, and training for the network analyzer tool. The classified
        annex to this report contains recommendations concerning information management physical
        security.
[Redacted] (b) (5)




                                                  23
                                      SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED
[Redacted] (b) (5)




          Innovative Practice: Use of Windows 7 Deployment Tool

         Issue/Challenge: Embassy Panama City faced a tight deadline to upgrade network computers to
         Windows 7 in the midst of senior-level visits. This process ordinarily would require a month to
         complete the mission’s 245 computers.

         Background: Network upgrades are necessary but time-consuming.

         Innovative Practice: The information management team developed a technical solution using
         the Preboot eXecution Environment (PXE boot), a network-based interface, to perform the
         upgrade without the use of physical data storage devices.

         Benefit: Embassy Panama City deployed Windows 7 on 245 workstations in 10 business days,
         about half the time that usually required for an upgrade of this type. The Department praised the
         mission’s innovative use of technology to achieve this objective.




                                                24
                                    SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Quality of Life
        Embassy morale is good. U.S. employees receive a 10 percent cost of living allowance.
Panama City has good restaurants, medical care, private schools, and shopping. The region has
abundant travel and sightseeing opportunities, cultural activities, and sporting options. Negative
factors include a hot and humid climate, heavy traffic, pollution, and crime.

Community Liaison Office

        The embassy’s practice of appointing two individuals to serve as part-time community
liaison office coordinators works well. The office sponsors morale trips and events, and assigns
sponsors to newly arrived mission members. The coordinators attend meetings of the post
employment committee, interagency housing board, and the emergency action committee. They
also participate in the eligible family member hiring process.

Health Unit

        The health unit provides adequate service. Panama has a modern medical infrastructure,
and quality care is available for most medical services. The unit appropriately serves as a liaison
between the mission community and the local medical establishment, rather than as a primary
care provider. The embassy is considering hiring a Panamanian doctor to work part time in the
unit.

American Employee Recreation Association

        The American Employee Recreation Association offers limited services to the embassy
community. These include on-compound gasoline sales to U.S. direct-hire employees, operation
of a small coffee shop and souvenir store, and an online bill paying service. The association
makes a modest profit. During the inspection, the association completed overdue financial
statement and audit reporting requirements. Delays in submitting required reports reflect poor
practices on the part of the previous association general manager, as well as inadequate oversight
of the association by previous boards of directors.

        The general manager and two other staffers are independent contractors. These
individuals may be considered employees under Panamanian labor law, which could make them
eligible for benefits such as severance pay, overtime, or pensions. Guidance in 6 FAM 531.3
describe requirements concerning the need to maintain severance pay accounts in accordance
with local labor law. Similarly, under 6 FAM 536, associations must meet local labor law
requirements for all employees. If an employer-employee relationship exists, the independent
contractor arrangement may violate labor law and expose the association to legal issues.

Recommendation 20: Embassy Panama City, in coordination with the Bureau of
Administration, should obtain an advisory opinion on whether the American Employee
Recreation Association’s employment policies comply with local labor laws. (Action: Embassy
Panama City, in coordination with A)



                                       25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Management Controls
        The annual chief of mission management controls statement of assurance was signed July
12, 2013. This evaluation of management controls provided reasonable assurance that there were
no material weaknesses or reportable conditions. The statement of assurance identified and
reported a list of safety, health, and environmental management issues, discussed earlier in this
report, that have been addressed satisfactorily.




                                       26
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Panama City, in coordination with the Bureau of Western
Hemisphere Affairs, should implement a plan to improve administrative support for grants
management. (Action: Embassy Panama City, in coordination with WHA)

Recommendation 2: Embassy Panama City should request support visits from the U.S.
Agency for International Development’s regional office to cover the semiannual meetings of the
Ecological Trust Fund, the Chagres National Park Fund, and the Darien National Park Fund.
(Action: Embassy Panama City)

Recommendation 3: Embassy Panama City should submit Mission Activity Tracker reports
for all its information and media activities. (Action: Embassy Panama City)

Recommendation 4: Embassy Panama City, in coordination with the Bureau of Human
Resources, should eliminate the information resource center specialist, position 313201100411.
(Action: Embassy Panama City, in coordination with DGHR)

Recommendation 5: The Bureau of Consular Affairs should remove Embassy Panama City
from the regional consular officer program. (Action: CA)

Recommendation 6: Embassy Panama City should request authorization from the Bureau of
Consular Affairs to initiate a program for passport renewal by mail. (Action: Embassy Panama
City)

Recommendation 7: Embassy Panama City should implement a nonimmigrant interview
waiver program for qualified citizens of Panama and appropriate permanent residents. (Action:
Embassy Panama City)

Recommendation 8: Embassy Panama City should assign the fraud prevention manager
portfolio to the visa chief on the arrival of the assistant regional security officer for
investigations. (Action: Embassy Panama City)

Recommendation 9: Embassy Panama City should establish a mechanism to identify long-
term temporary personnel stationed at the mission and, where appropriate, seek formal approval
for them through the National Security Decision Directive 38 process. (Action: Embassy Panama
City)

Recommendation 10: Embassy Panama City should prepare a cost-benefit analysis to
determine whether outsourcing voucher processing to the Post Support Unit would result in cost
savings and share the results with the International Cooperative Administrative Support Services
council. (Action: Embassy Panama City)

Recommendation 11: Embassy Panama City, in coordination with the Bureau of Western
Hemisphere Affairs, should compare its vouchering procedures to those of more efficient
vouchering units and revise its procedures accordingly. (Action: Embassy Panama City, in
coordination with WHA)


                                      27
                          SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

         Recommendation 12: Embassy Panama City should reconcile outstanding travel advances,
         determine uncollectible amounts, and write off uncollectable amounts. (Action: Embassy
         Panama City)

         Recommendation 13: Embassy Panama City should establish an appropriate level of staffing
         to improve residential maintenance services. (Action: Embassy Panama City)

         Recommendation 14: Embassy Panama City should submit to the International Cooperative
         Administrative Support Services’ Service Center an updated furniture and appliance pool policy
         that complies with Department of State guidance. (Action: Embassy Panama City)

         Recommendation 15: Embassy Panama City should require all contracting officer’s
         representatives receive mandatory contracting officer’s representatives training. (Action:
         Embassy Panama City)
[Redacted] (b) (5)




         Recommendation 20: Embassy Panama City, in coordination with the Bureau of
         Administration, should obtain an advisory opinion on whether the American Employee
         Recreation Association’s employment policies comply with local labor laws. (Action: Embassy
         Panama City, in coordination with A)




                                                28
                                    SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Panama City should implement missionwide standard
operating procedures for small grants programs to document processes applicable to grants
award, monitoring, and closeout.

Informal Recommendation 2: Embassy Panama City should update its English- and Spanish-
language Web sites in a timely fashion.

Informal Recommendation 3: Embassy Panama City should request grants officer
representative certification for the public affairs section administrative assistant.

Informal Recommendation 4: Embassy Panama City should keep separate statistics for 6
months on routine consular services requested from the area that would be served by the
proposed consular agency.

Informal Recommendation 5: Embassy Panama City should publish an annual schedule of
consular outreach visits to the Chiriquí region in advance.

Informal Recommendation 6: Embassy Panama City should conduct quarterly outreach visits
to the Chiriquí region.

Informal Recommendation 7: Embassy Panama City should reintroduce the personal
appearance waiver for young children, elderly Panamanian citizens, and permanent residents
from countries with no history of child smuggling.

Informal Recommendation 8: Embassy Panama City should determine what secondary
documentation might reduce the number of referrals for DNA testing without compromising the
integrity of the visa or citizenship process.

Informal Recommendation 9: Embassy Panama City should issue a management notice
outlining a policy that conforms to Department regulations on the use of government
telecommunications equipment for personal calls.

Informal Recommendation 10: Embassy Panama City should provide the financial
management unit copies of all active contracts, grants, contracting officer warrants, and grant
officer warrants.

Informal Recommendation 11: Embassy Panama City should update and reissue financial
management policies.

Informal Recommendation 12: Embassy Panama City should offer on-the-job training to its
locally employed Equal Employment Opportunity liaisons.
                                       29
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                      Name     Arrival Date
Ambassador                                                Jonathan D. Farrar         5/2012
Deputy Chief of Mission                                         John C. Law          8/2011
Chiefs of section:
  Management                                                   Miki Rankin          7/2013
  Consular                                              Kent C. Brokenshire        10/2011
  Political                                            Shelby Smith-Wilson          8/2012
  Economic                                                      James Perez         8/2013
  Public Affairs                                             Kristin Stewart        8/2013
  Security                                                 Christopher Stitt        8/2011
  International Narcotics and Law Enforcement                Ramon Negron           8/2012
Department of Agriculture
  Animal and Plant Health
  Inspection Service                                          John L. Shaw          2/2013
  Foreign Agricultural Service                               Arlene Villalaz        4/2009
Department of Commerce
  U.S Commercial Service                                     John Coronado          7/2013
Department of Defense
  Senior Defense Official                       Capt. Jacqueline Renee Finch        6/2011
  Defense Attaché                               Capt. Jacqueline Renee Finch        6/2011
  Naval Criminal Investigative Service                               Vacant
  Office of Defense Cooperation                 Capt. Jacqueline Renee Finch        6/2011
  Tactical Analysis Team                                      Shane Hoffman         1/2012
Department of Homeland Security
  U.S. Coast Guard                                            William Mees          7/2013
  U.S. Customs and Border Protection                         Erik Moncayo           5/2013
  Homeland Security Investigations                           Edward Dolan           7/2011
  Transportation Security Administration                   Mariely Loperena         3/2013
Department of Justice
  Drug Enforcement Administration                        Daniel C. Mahoney          8/2010
  Federal Bureau of Investigation                             Neil Donovan          3/2011
Department of Transportation
  Federal Aviation Administration                            Daniel Castro         12/2009
Internal Revenue Service                                 Michael C. Daniels         7/2010
Open Source Center                                                John Hyp          9/2012
Peace Corps                                                  Peter La Raus          6/2013




                                     30
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CA               Bureau of Consular Affairs

DCM              Deputy chief of mission

EEO              Equal Employment Opportunity

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

FAST             First- and second-tour

ICASS            International Cooperative Administrative Support Services

ICS              Integrated Country Strategy

LE               Locally employed

NSDD-38          National Security Decision Directive 38

USAID            U.S. Agency for International Development




                            31
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
